                                                                  Issue Date
                                                                          August 29, 2007
                                                                  Audit Report Number
                                                                               2007 BO 1008




TO:        Donna J. Ayala, Director, Office of Public Housing, Boston, Massachusetts,
           Regional Office, 1APH


FROM:      John A. Dvorak, Regional Inspector General for Audit, 1AGA

SUBJECT: Holyoke Housing Authority, Holyoke, MA Needs to Improve Its Internal
         Controls over the Voucher Program, Cost Allocations and Transfers

                                    HIGHLIGHTS

 What We Audited and Why


             We audited the Housing Choice Voucher program (Voucher program) at the
             Holyoke Housing Authority (Authority) as part of our fiscal year 2007 annual
             audit plan. The objective of the audit was to determine whether the Authority
             administered the Voucher program in accordance with its annual contributions
             contracts and U.S. Department of Housing and Urban Development (HUD)
             requirements. Our efforts focused on whether the Authority properly (1)
             determined tenant eligibility/HAP payment calculations; (2) made and supported
             rent reasonableness determinations; (3) determined payments for unused sick
             leave; and (4) allocated costs and accounting for interfund transfer transactions.


 What We Found


             The Authority generally administered the Voucher program according to its
             administrative plan but not always in accordance with its annual contributions
             contracts and HUD requirements. It did not (1) ensure that the required
             documentation was maintained to support the eligibility of each tenant and its
           housing assistance payments, (2) conduct rent reasonableness determinations
           according to HUD requirements, (3) follow a prudent personnel practice
           regarding payment for unused sick leave upon the death or retirement of an
           employee, and (4) always properly allocate costs or account for interfund transfer
           transactions.

           These conditions occurred because the Authority either had not established adequate
           internal controls or followed the controls that were in place to ensure compliance
           with its annual contributions contracts and HUD regulations.


What We Recommend


           We recommend that the director of the Office of Public Housing require the
           Authority to (1) implement adequate procedures and controls over its housing
           assistance payments to ensure that tenant eligibility and subsidy payments are
           supported and determined in accordance with HUD requirements and its annual
           contributions contracts and correct $4,678 in erroneous payments, (2) establish
           controls to ensure that rent reasonableness determinations are completed in
           accordance with HUD requirements, (3 ) revise its sick leave policy with regard to
           its federal programs and reimburse $397,950 in unreasonable costs for employees’
           unused sick leave, and (4) provide support for or reimburse to HUD $354,139 in
           unsupported administration costs and $556,967 in interprogram transactions. We
           also recommend that the director of the Office of Public Housing recapture from the
           Authority or offset $106,830 in administrative fees for not performing rent
           reasonableness determinations in accordance with HUD’s requirements.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
           or directives issued because of the audit.


Auditee’s Response


           We provided the Authority a draft report on July 24, 2007, and held an exit
           conference with officials on July 25, 2007. The Authority provided written
           comments on August 15, 2007. It generally agreed with our findings and
           recommendations. It has taken some corrective actions that should eliminate the
           conditions noted in this report. The Authority’s response, along with our
           evaluation of that response, can be found in appendix B of this report.




                                            2
                               TABLE OF CONTENTS

     Background and Objectives                                                         4

     Results of Audit
      Finding 1: Housing Assistance Payments Were Not Always Properly Calculated and   5
      Tenant Eligibility Was Not Always Properly Supported
      Finding 2: The Authority Did Not Adequately Conduct Its Rent Reasonableness      8
      Determinations in Accordance with HUD Requirements
      Finding 3: The Authority’s Personnel Policy Regarding Payment for Unused Sick    11
      Leave Exceeded State Payment Practices
      Finding 4: The Authority’s Cost Allocation Lacked Support and Its Accounting     14
      Controls over Interprogram Transfers Were Weak

     Scope and Methodology                                                             17

     Internal Controls                                                                 18

     Appendixes
A.       A - Schedule of Questioned Costs and Funds to Be Put to Better Use            20
         B - Auditee Comments and OIG’s Evaluation                                     21
         C – Tenant File Reviews – Schedule of Deficiencies and Housing Assistance     29
      Overpayments/Underpayments
C.       D - Selected Criteria for the Section 8 Voucher Program                       30




                                               3
                           BACKGROUND AND OBJECTIVES

The United States Housing Act of 1937 established the federal framework for government-
owned affordable housing. This act also authorized public housing as the nation’s primary
vehicle for providing jobs and building and providing subsidized housing through the U.S.
Department of Housing and Urban Development (HUD). HUD disperses funds to public
housing agencies under annual contributions contracts to provide subsidy payments or housing
assistance payments for participating low-income families.

In addition, the United States Housing Act of 1937, as amended by the Quality Housing and
Work Responsibility Act of 1998, created the Section 8 Housing Choice Voucher tenant-based
program (Voucher program). The Voucher program is funded by HUD and allows public
housing authorities to pay HUD subsidies directly to housing owners on behalf of the assisted
family.

The Voucher program is administered by the Holyoke Housing Authority (Authority) for the
City of Holyoke, Massachusetts. HUD contracts with the Authority for the administration and
management of 987 low-income units through annual contributions contracts.1 The Authority
received approxmately $17.9 million in funding for its Section 8 HCV program for fiscal years
2004 through 2006. The annual contributions contracts require the Authority to follow
appropriations laws, HUD requirements including public housing notices, and the Authority’s
administrative plan.

The principal staff member of the Authority is the executive director, who is hired and appointed
by the Authority’s board of commissioners (board). The executive director is directly
responsible for carrying out the policies established by the board and is delegated the
responsibility for hiring, training, and supervising the remainder of the Authority’s staff to
manage the day-to-day operations of the Authority and to ensure compliance with federal and
state laws and directives for the programs managed.

Our overall audit objectives were to determine whether the Authority properly administered its
Voucher program while providing decent, safe, and sanitary housing in compliance with its
annual contributions contracts and complied with HUD procurement requirements for its HUD-
funded programs. The specific objectives were to determine whether the Authority had internal
controls that were effective and ensured programs were managed in accordance with HUD
requirements regarding: (1) tenant eligibility/HAP calculations; (2) rent reasonableness; (3)
payments for unused sick leave upon death or retirement; and (4) allocation of costs and
accounting for interfund transfers.




1
    As of March 1, 2007.


                                                4
                                      RESULTS OF AUDIT

Finding 1: Housing Assistance Payments Were Not Always Properly
Calculated and Tenant Eligibility Was Not Always Properly Supported
The Authority did not always ensure that housing assistance payments were properly calculated and
adequately supported and that tenant files contained all required documentation concerning tenant
eligibility. We identified 10 instances in which the Authority made $4,678 in erroneous housing
assistance payments. Based on our statistical sample, we estimate that the Authority improperly
calculated housing assistance payments for 13 percent of the households serviced annually. 2 These
deficiencies are attributed to the Authority’s lack of adequate oversight and lack of proper care in
performing annual tenant recertifications for its Voucher program. As a result, there is a potential
for overpayments and underpayments of housing assistance that could negatively affect the Voucher
program and program tenants.



    The Authority Incorrectly
    Calculated Some Housing
    Assistance Payments


                 The Authority generally complied with HUD requirements related to the
                 calculation of housing assistance payments. However, it did not always obtain all
                 third-party verifications or use the correct utility allowance or payment standard.
                 This noncompliance resulted in 10 erroneous housing assistance payments
                 totaling $4,678, representing overpayments of $2,605 and underpayments of
                 $2,073 (See appendix C - Results of Tenant File Review). Using the lower point
                 estimate of our statistical sample, we estimate that there were 129 tenant files (13
                 percent) with housing assistance payments that were incorrectly calculated each
                 year. This projection is made solely to illustrate the impact these deficiencies
                 could have on the Voucher program.


    The Authority Had Inadequate
    Support for Tenant Eligibility


                 The Authority generally conducted the household annual recertifications for its
                 Voucher program in a timely manner and complied with HUD requirements for
                 determining tenant eligibility. However, we identified deficiencies or a lack of
                 support in some of the tenant files. Of the 44 tenant files selected for review, 29

2
   As of March 2007, the Authority provided housing assistance to 987 households. The projected errors in housing
assistance calculations were for 129 of the households or 13 percent based on the sample results.


                                                        5
           (65.9 percent) contained at least one deficiency. Although this is a large
           percentage, most of the deficiencies were minor in nature and had no effect on
           tenant’s eligibility or the calulation of the housing assistance payment.

           Of the deficiencies identified regarding tenant eligibility, nine files were missing
           copies of birth certificates, and five files were missing copies of Social Security
           cards. Although these documents are not required by HUD regulations, the
           Authority’s administrative plan requires it to obtain and maintain these documents
           and to include them in the tenant files. HUD requires that the Authority follow its
           own administrative plan. In addition, the HCV guidebook page 5 – 12, states that
           tenants are required to present an original Social Security card. Retaining a copy
           of the the Social Security card in the tenant files will confirm that the tenants
           presented the card as required. We also identified two instances in which the
           Authority did not maintain adequate documentation to show that the tenant had
           eligible immigration status. HUD does require that the Authority confirm
           residency status and retaining documents supporting eligible status ensures
           compliance with this requirement.

The Authority’s Management
Acknowledged a Lack of Proper
Management Oversight


           The review of the tenant files found that the Authority’s personnel did not always
           take sufficient care to ensure that housing assistance payments were calculated
           properly and tenant files were properly maintained. The Authority’s
           administrative plan states that file documentation records should be sufficient
           enough to enable a staff member or HUD reviewer to understand the process
           followed and conclusions reached. To determine if the records conform to
           program requirements, the Authority indicated that it verifies sufficiency of the
           tenant records through supervisory quality control reveiws. We could not
           determine whether these reviews were adequately conducted because the
           Authority failed to maintain documents or records showing the detailed results of
           reviews performed or whether any corrective actions were taken. However, the
           quality control reviews have failed to prevent the errors we identified, such as the
           missing documents (birth certificates, Social Security cards, or third-party
           verifications), and the calculation errors. In addition, the Authority’s
           management acknowledged that a recent reduction and turnover in staff had led to
           a learning period for new employees, and there had been a lack of adequate
           oversight of this function by management.




                                            6
Conclusion


             The Authority generally complied with HUD requirements for determining tenant
             eligibility and the calculation of housing assistance payments. However, it needs to
             improve its internal controls and oversight of its Voucher program and ensure that
             Section 8 housing staff use care in calculating tenant housing assistance payments,
             determining tenant eligibility, and maintaining support for both of these actions.
             The deficiencies noted in our audit contributed to $4,678 in erroneous housing
             assistance payments, and we estimate that 129 tenant files (13 percent of households
             serviced) contained housing assistance payment calculation errors.


Recommendations


             We recommend that the director of the Office of Public Housing require the
             Authority to
             1A.    Strengthen its internal controls to ensure that Authority staff follows the
                    Authority’s policies and procedures over housing assistance and utility
                    allowance calculations and payments, and to ensure that payments are made
                    in accordance with HUD’s requirements and its administrative plan.

             1B.    Ensure that Authority staff performs adequate quality control reviews to
                    ensure that all required documentation is maintained in its Voucher program
                    tenant files to support the eligibility of each tenant and to support the
                    housing assistance payments.

             1C.    Reimburse the Voucher program $2,605 from nonfederal funds for the
                    overpayment of housing assistance for the six Section 8 tenants.

             1D.    Reimburse $2,073 for the underpayment of housing assistance to the four
                    Section 8 tenants.




                                              7
                                      RESULTS OF AUDIT

Finding 2: The Authority Did Not Adequately Conduct Its Rent
Reasonableness Determinations in Accordance with HUD Requirements
The Authority had not performed or contracted for rent comparability or rent reasonableness
studies in recent years to support that its rents were reasonable. This occurred because the
Authority’s internal controls did not ensure that it followed HUD requirements or its own
administrative plan for conducting rent reasonableness determinations. As a result, it could not
demonstrate that its contract rents were reasonable. Because the Authority’s rent reasonableness
determinations were not conducted as required, the Authority did not earn $106,830 in
administrative fees it received from HUD.



    Rent Reasonableness
    Determinations Were Not
    Adequately Performed

                 HUD requires housing authorities to ensure that rents charged by owners to
                 housing choice voucher program participants are reasonable. To determine rent
                 reasonableness, the housing authority must compare the rent for the voucher unit
                 to rents for similar unassisted units in the marketplace and on the premises. The
                 Authority’s administrative plan reflects the requirement for conducting rent
                 reasonableness determinations according to HUD requirements. However, the
                 Authority did not adequately perform its rent reasonableness determinations.

                 The Authority did not make rent comparisons to the marketplace or unassisted
                 units on the premises as required. In addition, the Authority had not contracted
                 out for any rent comparability studies that would assist the Authority in making
                 rent reasonableness determinations. Instead, the Authority relied on its own
                 undocumented knowledge of market rents in its jurisdiction to assess
                 reasonableness, and on the owners who certified that rents were reasonable in
                 relation to rents charged for other comparable unassisted units. This occurred
                 because the internal control 3 requiring review of the rent reasonableness
                 determination did not ensure the determinations were conducted according to
                 HUD requirements or the Authority’s administrative plan.




3
  The Authority’s program administrator or his/her designee shall review all rent reasonableness determinations
conducted by staff before a contract rent is approved (Administrative Plan, Chapter 8, Part 3, 8-III.D - HHA Rent
Reasonableness Methodology).


                                                         8
Authority Does Not Adhere to its
Administrative Plan


          In order to compare program units to market units, it is necessary to collect
          comparable information on the unassisted units. The administrative plan provided
          that the Authority would maintain current survey information on rental units in
          the jurisdiction and that the Authority would also obtain from landlord
          associations and management firms the value of the array of amenities.
          This allows the Authority to consider: (1) the location, quality, size, unit type, and
          age of the contract unit; and (2) any amenities, housing services, maintenance and
          utilities to be provided by the owner in accordance with the lease as required by
          HUD. However, we found that the Authority did not maintain current survey
          information on rental units in its jurisdiction. The administative plan further
          provided that the Authority would establish minimum base rent amounts for each
          unit type and bedroom size and that the Authority would add or subtract the dollar
          value for each characteristic and amenity of a proposed unit to the established
          base rent amounts. It had not established minimum base rents for each unit type
          to which additions and subtractions could be made for each characteristic or
          amenity of a proposed unit.

          In support of rent reasonableness determinations, an authority’s tenant files are
          required to contain two documents (forms) related to rent reasonableness
          determinations: a Certification for Rent Reasonableness, prepared by the
          Authority, and a Statement of Rent Reasonableness-Comparability, completed by
          the owner-agent. Of 44 Voucher program tenant files reviewed, 32 (73 percent)
          were missing the Certification for Reasonablenss, and 24 (55 percent) were
          missing the owner’s Statement of Rent Reasonableness-Comparability. In
          addition, the forms that were in the files were incomplete and missing data needed
          to complete a rent reasonableness determination. The limited information and
          data included in the tenant files did not provide the Authority a basis on which to
          make adequate or supportable rent reasonableness determinations regarding its
          assisted units.

          The lack of rent determinations and information for conducting the determinations
          can be attributed to an inadequate internal control which did not ensure
          compliance, and to staff turnover and unfamiliarity of new employees (finding 1)
          with the requirements in the Authority’s administrative plan. The Authority needs
          to address the non-compliance and should provide training to the staff to ensure
          they understand and implement HUD requirements and its administrative plan for
          rent reasonableness determinations.




                                            9
Conclusion


             The Authority did not adequately conduct its rent reasonableness determinations
             as required by HUD regulations and its own administrative plan. It also did not
             obtain, use, or maintain the information needed to support these determinations.
             This occurred because the Authority’s internal controls failed to ensure it
             followed its own administrative plan to conduct rent reasonableness determination
             according to HUD requirements. As a result, it could not demonstrate that its
             contract rents were reasonable, and HUD may have funded housing assistance
             payments for excessive contract rents. Since the Authority’s rent reasonableness
             determinations were not properly conducted and its process for calculating
             housing assistance payments and determining tenant eligibility also contained
             deficiencies (see finding 1 of this report), HUD should recapture or offset an
             appropriate amount of administrative fees pertaining to the Authority’s
             administration of the Voucher program. We recommend that $106,830 of the
             $2,136,598 (or 5 percent of the paid administrative fees) received for fiscal years
             2004, 2005, and 2006 are recaptured by HUD.

Recommendations

             We recommend that the director of the Office of Public Housing require the
             Authority to

             2A.    Establish controls that ensure HUD requirements and its administrative plan
                    are followed in conducting reasonable rents determinations.

             2B.    Provide training for all Authority personnel involved in rent reasonableness
                    determinations.

             2C.    Recapture or offset five percent of the administrative fees for fiscal years
                    2004, 2005, and 2006 in the amount of $106,830 for not performing rent
                    reasonableness determinations in accordance with HUD’s rules and
                    regulations or the Authority’s administrative plan.




                                              10
                                 RESULTS OF AUDIT

Finding 3: The Authority’s Personnel Policy Regarding Payment for
Unused Sick Leave Exceeded State Payment Practices
The Authority paid a 100 percent rate of compensation for unused sick leave when an employee
retired or upon the employee’s death under its personnel policy. At this compensation rate, the
federal portion of the compensated sick leave balances for employees who qualified for
retirement at the time of our audit totaled $497,437. This amount has been accrued (expensed
against federal programs) and represents a future liability against the Authority for unused sick
leave. This condition is attributed to its employee union contract negotiations that helped to
form the Authority’s 100 percent rate of compensation policy. Although this policy had been in
effect for several years, it was not prudent in comparison with the allowable 20 percent
prescribed for state agencies. In addition, the annual contributions contracts require that funds be
expended for costs that are necessary and reasonable. Under the state-prescribed compensation,
the compensation that should have been paid totaled $99,488. As a result, the Authority paid
$397,950 in unnecessary and unreasonable expenses to its federal programs based on the
prescribed state compensation.



 The Authority’s Sick Leave
 Policy Was Questioned by Its
 Board

               The Authority’s sick leave policy and its administrative and maintenance
               agreements with the AFL-CIO Union (Council 93, Local #3753) stated that the
               Authority would pay an retiring employee or a legal representative in the case of
               death an amount equal to one day’s pay for every one day of unused sick leave
               accumulated (a 100 percent compensation rate for the unused sick leave). Our
               review of the minutes of the Authority’s board meetings disclosed that some
               board members had questioned the policy of 100 percent compensation for
               unused sick leave because of a concern that employees were accumulating
               excessive sick leave. One commissioner stated that a rate of compensation of 20
               percent for unused sick leave was preferable to a rate of 100 percent to be given to
               employees at retirement or upon their death, but the rate was not changed. The
               Authority’s position was that the policy acted as an inducement for employees not
               to use their sick time before retirement, which would then reduce or eliminate the
               need for the Authority to replace the employee during sick leave absences.




                                                11
State Agencies Use State-
Prescribed 20 Percent
Compensation for Unused Sick
Leave


             The Human Resources Division of the Commonwealth of Massachusetts issues
             policy guidance on rules governing paid leave for state employees. Under current
             state policy, employees who retire directly from active employment and who have
             accumulated unused sick leave credits are paid on an amount equal to 20 percent
             of the value of such credits. In addition, an estate will be paid 20 percent of the
             value of the unused sick leave credits accumulated by the employee as of the date
             of death for an employee who dies while actively employed.

             In 2006, local news media in Boston reported that several of the largest state
             agencies, the Massachusetts Turnpike Authority and the Massachusetts Port
             Authority, came under public scrutiny and criticism for their sick leave policies
             that allowed employees to be paid for 50 percent and 100 percent, respectively, of
             their unused sick leave. The news coverage cited that the norm in other
             Massachusetts state agencies was 20 percent. The boards of both agencies later
             reduced the rate of compensation to 20 percent for 2007 and future years.

             As of December 31, 2006, 18 of the Authority’s 51 employees qualified for
             retirement. These employees had 20 years of service or had reached the age of 55
             with 10 years of service. The total accrued compensated sick leave balances for
             those 18 employees totaled $570,186. Of this total, $497,437 was charged to
             federal programs ($318,438 federal, $162,278 Section 8 Voucher program,
             $16,061 Section 8 Moderate Rehabilitation, and $660 Comprehensive Grant
             Program) and the remaining $72,748 was charged to state programs. The state-
             prescribed compensation for unused sick leave would have resulted in a $99,488
             expense for the programs. Because the state policy was not used, HUD programs
             were charged excessive costs totaling $397,950.

             The Authority’s management agreed that the current policy resulted in excessive
             costs and has initiated action to change its policy regarding the compensation for
             unused sick leave. As part of this change, the Authority’s management plans to
             confer with its union representatives and reach agreement for implementing these
             changes.

Conclusion

             The Authority’s unused sick leave policy was not prudent in comparison with the
             state policy and resulted in $397,950 in unnecessary and unreasonable expense to
             the federal programs operated by the Authority. This policy also represents an
             excessive future liability against the Authority’s federal programs. The
             Authority’s management is working to resolve the issue regarding the



                                             12
          compensation for unused sick leave and needs to continue working with all parties
          involved to resolve this matter.


Recommendations


          We recommend that the director of the Office of Public Housing ensure that the
          Authority

          3A. Change its unused sick leave policy to reflect a more prudent compensation
              practice for unused sick leave charged to federal programs, immediately limit
              the unused sick leave charges made to federal programs to 20 percent of the
              total accrual, and require amounts in excess of 20 percent to be paid from
              nonfederal funds.

          3B. Reverse the $397,950 accrual to federal program through prior-years
              adjustments for unused sick leave, document accruals, submit an accounting of
              the accruals for at least the next six months or as required by HUD, and make
              payments of any future compensation for the excess unused sick leave (above
              20 percent) effective immediately from non-federal funds.




                                          13
                                       RESULTS OF AUDIT

Finding 4: The Authority’s Cost Allocations Lacked Support and Its
Accounting Controls over Interprogram Transfers Were Weak
The Authority misallocated administrative salaries and did not reconcile differences in its
interfunds program receivables and payables. These conditions occurred because the Authority
did not clearly define or have a supportable basis for its cost allocation plan and did not properly
account for its interprogram funds transactions. As a result, the Authority’s allocation of
administrative salaries totaling $354,139 was not supported, and interprogram funds transfers
resulted in an imbalance of $556,967, which also could result in a misstatement of program
revenues and expenses for the programs involved. 4



    Allocation of Administrative
    Salaries in 2006 and 2007 Was
    Unsupported


                  The Authority allocated $354,139 in administrative salaries for the director of
                  development, the executive director’s secretary, the moderate rehabilitation
                  secretary, and the junior accountant for fiscal years 2006 and 2007. The
                  Authority followed an allocation plan it developed for allocating these program
                  costs. A review of the salary costs charged indicated that the costs were not
                  reflective of the level of effort associated with the administration of the program.
                  The plan allocated all administrative salary costs for the director of development,
                  executive director’s secretary, moderate rehabilitation secretary, and junior
                  accountant to the public housing program. A review of job descriptions for these
                  individuals indicated that they assisted in the administration of all federal and
                  state programs. For instance, the junior accountant was responsible for the
                  accounts payable for the entire Authority including all federal and state programs.
                  Discussions with Authority personnel confirmed that these employees worked on
                  more than just the federal public housing program.

                  The plan allocated costs based on predetermined or budgeted percentage rates.
                  However, the percentage rates were not based on the level of effort associated
                  with the administration of each program, and the Authority had not developed the
                  support for the determination in the plan to allocate all of these administrative
                  salary costs to the federal public housing program, nor could it support the
                  allocation used for the administrative salaries. It had not conducted a time study
                  to determine the level of effort and chargeable time associated with the

4
  The Authority’s primary housing programs are federal and state operating, federal capital, state modernization, and
federal and state leased housing programs.


                                                         14
             administration of any of its federal or state programs. It also did not have time
             sheets or time cards that tracked employees’ time by activity or program for
             determining chargeable salary costs. The Authority’s use of predetermined salary
             percentages did not properly allocate the administrative salary costs charged since
             the amount charged was not reflective of the level of effort associated with the
             administration of the program charged.

Interprogram Receivables and
Payables Were Out of Balance



             The Authority’s interprogram receivable and payable accounts among the various
             programs administered by the Authority were out of balance by $556,967. The
             interprogram imbalance was the result of fund transfers between the HOPE VI
             and Homeownership programs that occurred because of a cost/benefit
             consideration the Authority implemented in restructuring its accounts as required
             by the latest appropriations acts.

             Transfers into the Homeownership program became part of the “assets held for
             resale” account. At the end of fiscal years 2004 and 2005, the balances in this
             account were estimates of what was believed to be the remaining cost associated
             with the inventory of homes yet to be sold. Eventually, the amount in the account
             was reduced and eliminated in the transactions that resulted from the sale of the
             homes. The imbalance in the interprogram receivables and payables was clearly
             reflected in the accounts as the result of the sale of the last home in the
             Homeownership program. However, the Authority did not have written
             procedures in place to reconcile interprogram accounts and investigate and correct
             imbalances. As a result, the unbalanced interprogram accounts could cause a
             misstatement of program revenues or expenses for the program involved.


Conclusion



             There is little assurance that the costs identified above were appropriately
             allocated to HUD programs. The Authority’s plan governing its allocation of
             costs was not reasonable and did not provide for a supportable determination of
             the chargeable time and costs for each activity or program. The plan used
             predetermined percentages to allocate shared resources’ salaries and cost, which
             were not supported by a time study that determined the chargeable time and costs
             for each activity. Also, the Authority’s interfund transactions resulted in an
             imbalance between its interprogram accounts receivable and payable accounts,
             and it did not have procedures to reconcile accounts involving interprogram
             transactions. A clearly supportable allocation and stronger controls over interfund



                                             15
          transfers will help to ensure that the Authority properly accounts for all of its
          federal funds and will provide assurance to HUD that the Authority has
          appropriately allocated all of its costs to its federal programs.

Recommendations


          We recommend that the director of the Office of Public Housing require the
          Authority to
          4A.     Conduct a time study on a periodic or annual basis to determine the proper
                  allocation of salaries and benefits to the Voucher and Public Housing
                  Operating Fund programs.

          4B.     Provide support for salary expenses totaling $354,139 charged to the
                  Voucher and Public Housing Operating Fund programs or reimburse these
                  federal programs accordingly.

          4C.     Provide support for interprogram transactions totaling $556,967 or, if
                  support cannot be provided, reimburse the applicable federal programs
                  accordingly.




                                            16
                        SCOPE AND METHODOLOGY

We conducted the audit between January and May 2007. Our fieldwork was completed at the
Authority’s central office located at 475 Maple Street, Holyoke, Massachusetts. Our audit
covered the period January 1, 2004, to December 31, 2006, and was extended when necessary to
meet our objectives. To accomplish our audit objectives, we

   •   Interviewed the Authority’s directors of operations, management, and housing opportunities;
       chief financial officer; lead inspector; and lease housing and fee accountants to determine
       policies and procedures to be tested.

   •   Reviewed the financial statements, general ledgers, tenant files, rent reasonableness data,
       and cost allocation plans as part of our testing for control weaknesses.

   •   Reviewed program requirements including federal laws and regulations, Office of
       Management and Budget circulars, the consolidated annual contributions contract
       between the Authority and HUD, and the Authority’s administrative plan to determine its
       compliance to applicable HUD procedures.

   •   Selected and reviewed a statistical sample of 44 of the Authority’s Voucher program
       households’ files using EZ-Quant, a statistical analysis audit tool designed by the
       Defense Contract Audit Agency, from the Authority’s 987 active Voucher program
       households as of March 1, 2007, to determine whether the Authority performed annual
       recertifications in a timely manner, maintained proper documentation to support tenant
       eligibility, and maintained supporting documentation and correctly calculated its housing
       assistance payments. Our sampling criteria used a 90 percent confidence level, 3 percent
       estimated error rate, and precision of plus or minus 10 percent.

   •   For the fiscal year ending December 31, 2006, identified 18 Authority staff that had 20
       years of service or had reached the age of 55 with 10 years of service to determine who
       qualified for sick leave that equaled one day’s pay for every one day of unused sick leave
       that would potentially be paid upon a person’s death or retirement.

   •   For the period January 2004 through December 2006, reviewed the Authority’s
       accounting controls over cost allocation and interprogram receivable and payables to
       determine whether the Authority had accounting controls in place to safeguard its assets.

   •   Summarized the results of our analyses.

We performed our review in accordance with generally accepted government auditing standards.




                                                 17
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                      •   Controls over tenant eligibility, calculating housing assistance
                          payments, tenant payments, and utility allowances;
                      •   Controls over rent reasonableness;
                      •   Controls over voucher use (eligibility, waiting lists, and use);
                      •   Controls over housing quality standards inspections;
                         Controls over expenditures to ensure that they were necessary and
                          reasonable;
                      •   Controls over Section 8 program accounting and reporting; and
                      •   Controls over accounting for cost allocation and interprogram
                          receivables and payables.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses

              Based on our review, we determined the following items to be significant
              weaknesses:


                                                18
The Authority’s

   •   Controls over tenant eligibility, calculating housing assistance payments,
       tenant payments, and utility allowances did not ensure housing assistance
       payments were properly calculated and supported and tenant files contain all
       the required tenant eligibility documentation (finding 1).

   •   Controls over rent reasonableness determinations did not ensure that the
       determinations of rents for units were conducted based on relevant factors
       identified in HUD regulations and its own administrative plan (finding 2).

   •   Controls over accounting for cost allocation and interprogram receivables
       and payables did not ensure a clearly defined or a supportable basis for its
       cost allocation plan and its interprogram funds were accounted for
       properly (finding 4).




                                19
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE
 Recommendation     Ineligible 1/    Unsupported 2/     Unreasonable or    Funds to be put
        number                                          unnecessary 3/     to better use 4/
      1C                                  2,605
      1D                                  2,073
      2C              106,830
      3B                                                                       397,950
      4B                                 354,139
      4C                                 556,967
     Totals           106,830            915,784                0              397,950


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.

4/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified.




                                            20
        AUDITEE COMMENTS AND OIG’S EVALUATION

Appendix B
Ref to OIG Evaluation   Auditee Comments




                         21
Comment 1




Comment 1




            22
Comment 2




            23
Comment 3




            24
25
Appendix B




             26
Appendix B




             27
                          OIG Evaluation of Auditee Comments


Comment 1:   The Authority agreed with the recommendations. The Authority’s planned
             actions will be reviewed by HUD-PIH as part of the process to address and
             resolve the findings contained in the report.

Comment 2:   The Authority has agreed to work with HUD to resolve the recommendations.
             The Authority’s planned actions will be reviewed by HUD-PIH as part of the
             process to address and resolve the findings contained in the report. However, the
             Authority should only charge the federal programs 20 percent of the total accrual
             for unused sick leave and begin immediately regardless of when it changes its
             internal policy. Any accrual amount in excess of 20 percent should be paid from
             nonfederal funds. After discussions with HUD PIH, the recommendations were
             modified to reflect that federal programs should no longer be charged more than
             20 percent for the unused sick leave accrual, and that the Authority should
             provide monthly accounting of its accruals for unused sick leave.

Comment 3:   The Authority agreed with the recommendations and initiated corrective action.
             The Authority also attached support for salary expenses to its response. The
             documentation provided will be reviewed by HUD-PIH as part of the process to
             address and resolve the findings contained in the report.




                                             28
Appendix C
        TENANT FILE REVIEWS – SCHEDULE OF DEFICIENCIES AND
        HOUSING ASSISTANCE OVERPAYMENTS/UNDERPAYMENTS

Authority   Missing       Missing    Did not       Missing        Incorrect   Incorrect   Missing lease   Housing
client #    birth         Social     establish     third-party    utility     payment     addendum or     assistance
            certificate   Security   eligible      verification   allowance   standard    tenancy         overpayment/
                          card       immigration                                          addendum        underpayment
                                     status                                               (HUD Form
                                                                                          52641-A)
5435
221                                                                                             x
4922                          X                                                                 x
722                                                                                             x         $148
10101                                                                            x
9399                                      x                                                               $895
1231
7474                                                                  x                         x
5206
1637                                                                                            x         $930
3112             x                                                                              x
1438
1439                                                     x                                      x         $(210)
1505             x            x                                       x                         x
5885             x
907
2998                                                                                            x
1652                                                                  x                         x         $48
605                                                                   x                         x
534                                                                                             x
7307             x                        x                                                     x         $540
897                                                      x                                                $44
1245
1377                                                     x                                      x         $(1,778)
10704
8426
1602                                                                             x              x
1698                                                                                            x
6857                                                                  x                         x         $(11)
1286                                                                                            x
7183                                                     x                                      x
1262             x                                       x            x                                   $(74)
1551
6756                                                     x
1111
10291
582              x            x                                                                 x
1538
1368                                                                             x              x
10644
1367             x                                                                              x
4898             x            x                                                                 x
1393
901              x            x
Total            9            5           2              6            6          3             23         $532




                                                        29
Appendix D

     SELECTED CRITERIA FOR THE SECTION 8 VOUCHER
                      PROGRAM


Consolidated Annual Contributions Contract, Section 11a, Use of Program Receipts: The HA
[housing authority] must use program receipts to provide decent, safe, and sanitary housing for
eligible families in compliance with the U.S. Housing Act of 1937 and all HUD requirements.
Program receipts may only be used to pay program expenditures.

24 CFR [Code of Federal Regulations] 985.3B(ii)(b), SEMAP [Section 8 Management
Assessment Program] Indicator 2, Form Reasonable Rent: The authority must report
performance under 24 CFR 985.3B(ii)(b), SEMAP Indicator 2, Form Reasonable Rent. The
authority self-certifies that it “takes into consideration the location, size, type, quality, and age of
the program units and of similar unassisted units and any amenities, housing services,
maintenance, or utilities provided by the owners.”

24 CFR [Code of Federal Regulations] 982.54, Administrative Plan: “(a) The PHA [public
housing authority] must adopt a written administrative plan that establishes local policies for
administration of the program. (b) The PHA must revise the administrative plan if needed to
comply with HUD requirements. (c) The PHA must administer the program in accordance with
the PHA administrative plan.”

24 CFR [Code of Federal Regulations] 982.507(4)(b): Consideration for rent reasonableness
determinations must be given to not only location and bedroom size but quality, size, type, and
age of the contract unit and any amenities, housing services, maintenance, and utilities to be
provided by the owner.

24 CFR [Code of Federal Regulations] 982.152(2)(d): HUD may reduce or offset any
administrative fee to the PHA, in the amount determined by HUD, if the PHA fails to perform
PHA administrative responsibilities correctly or adequately under the program.




                                                  30
